2311 Douglas Street

@OCKLE

Legal Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-7
SEILA LAW LLC,
Petitioner,

v.
CONSUMER FINANCIAL PROTECTION BUREAU,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 16th day of December, 2019, send
out from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE LANDMARK LEGAL
FOUNDATION IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been
served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the
following:

SEE ATTACHED
To be filed for:
RICHARD P. HUTCHISON MATTHEW C. FORYS
LANDMARK LEGAL Counsel of Record
FOUNDATION MICHAEL J. O’NEILL
3100 Broadway LANDMARK LEGAL
Suite 1210 FOUNDATION
Kansas City, MO 64111 19415 Deerfield Ave.
816-931-5559 Suite 312
816-931-1115 (Facsimile) Leesburg, VA 20176
703-554-6100
703-554-6119 (Facsimile)
matt@landmarklegal.org

Attorneys for Amicus Curiae

Subscribed and sworn to before me this 16th day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

eed, i E Elle Qudiow-h, Ble

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38903
 

Attorneys for Petitioner

Kannon K. Shanmugam
Counsel of Record

Party name: Seila Law LLC

Paul, Weiss, Rifkind, Wharton & Garrison LLP
2001 K Street, N.W.
Washington, DC 20006

kshanmugam@paulweiss.com

202-223-7300

 

Attorneys for Respondent

Noel J. Francisco
Counsel of Record

Solicitor General

United States Department of Justice
Room 5616

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

Party name: Consumer Financial Protection Bureau

202-514-2217

 

 

Other

Paul D. Clement
Counsel of Record

Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004

paul.clement@kirkland.com

202-389-5000

Party name: Court-appointed amicus curiae in support of the judgment below on the question presented

by the petition

 

 
